far*- A''
Case: 2:14-cr-00127-ALM-MRM Doc #: 1665 Filed: 06/23/20 Page: 1 of 12 PAGEID #: 19653
I

►

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION AT COLUMBUS
UNITED STATES OF AMERICA,
Case No. 2:14-cr-127
Also 2:19-cv-3089

Plaintiff,

Chief Judge Algenon L. Marbley
Magistrate Judge Michael R. Merz

vs
JOHNATHAN HOLT,
Defendant.

DECISION AND ORDER

This is an action on a Motion to Vacate Defendant Johnathan Holt’s criminal conviction
under 28 U.S.C. § 2255. It is before the Court on Holt’s Appeal (ECF No. 1653) from the
Magistrate Judge’s Report and Recommendations (“Report,” ECF No. 1648).
The Court construes the “Appeal” as a set of objections to the Report. As required by
Fed.R.Civ.P. 72(b), the Court has considered de novo all portions of the Report to which specific
objection has been made and rules on those objections in this Order.

1

Case: 2:14-cr-00127-ALM-MRM Doc #: 1665 Filed: 06/23/20 Page: 2 of 12 PAG El D #: 19654

-Litigation-History

In March 2010, a drug dealer named Quincy Battle was shot and killed by Holt and a man
named Christopher Wharton during an attempt to rob Battle of fifteen pounds of marijuana. At
the time of the killing, Holt was two weeks shy of his eighteenth birthday.
The murder remained unsolved for some time. Four years later, suspecting Holt was
involved in the murder, investigators obtained a grand jury subpoena for Holt to appear at the
federal courthouse for a DNA sample, fingerprints, and a photograph. (Suppression Hrg. Tr., ECF
No. 1090, PagelD 8747-48, 8751-53.) While there, Holt made a damaging statement about his
involvement in the Battle murder. Id. at PagelD 8753.
In October 2014, a federal grand jury indicted Holt for murder in aid of racketeering in
violation of 18 U.S.C. § 1959(a)(1) and murder with a firearm during a drug trafficking crime in
violation of 18 U.S.C. § 924(j). (Superseding Indictment, ECF No. 300, PagelD 1205-07.) After
a four-day trial at which Holt did not testify, the jury found him guilty on both counts. The Court,
after considering a Presentence Investigation Report, then sentenced Holt to a term of life in prison
for murder in aid of racketeering (Count 19) and a consecutive 25-year prison term for murder
with a firearm during a drug-trafficking crime (Count 20) (Judgment, ECF No. 1413, PagelD
14397-98.)
With the assistance of new counsel, Holt appealed to the Sixth Circuit, which affirmed,
United States v. Holt, 751 F. App’x 820, 821 (6th Cir. 2018). Holt unsuccessfully sought review
by the United States Supreme Court which denied certiorari on February 25, 2019. Holt v. United
States, 139 S.Ct. 1281 (2019). Holt then filed this §2255 Motion on July 15, 2019, pleading the
following claims for relief:

2

Case: 2:14-cr-00127-ALM-MRM Doc #: 1665 Filed: 06/23/20 Page: 6 of 12 PAG El D #: 19658

_____ The-Report-recornmendeaTKaTflieMotion to Vacate be granted as to Ground One and that
the Court should refer the case for an amended Presentence Investigation Report and appoint
counsel to represent Holt in the sentencing process (ECF No. 1648, PagelD 19564).
The United States did not object to this recommendation and Defendant’s only caveat as
to Ground One is that he does not admit to murdering anyone (Appeal, ECF No. 1653, PagelD
19603-04). Accordingly the Report is ADOPTED as to Ground One.

Ground Two: Ineffective Assistance of Trial Counsel for Failure to Pursue a Mental Health
Evaluation
In his Second Ground for Relief, Holt claimed his trial attorney provided ineffective
assistance of trial counsel when he did not pursue a mental health evaluation.
In the Motion, Holt claims a number of mental health problems. He asserts he was at some
undisclosed point in time diagnosed as having Attention Deficit Hyperactivity Disorder (ADHD)
and as a child with major depression which became worse when he was shot and paralyzed in 2010
(ECF No. 1613, PagelD 19415). He claims an intelligence quotient below 60 and numerous
academic problems as well as suicidal ideation and attempts. Id. “Petitioner also states that he
was in a psychiatric hospital and suffers from auditory / visual hallucinations that urge him to do
stupid things.” Id. at PagelD 19416. The inmate who prepared the Motion on Holt’s behalf offers
the following opinion: “In summary it is my understanding from talking with him as another
inmate and reviewing his legal file that he was definitely denied proper counsel in reference to
establishing his mental competency at the time of the shooting, indictment, and subsequently the
trial.” Id.

6

Case: 2:14-cr-00127-ALM-MRM Doc #: 1665 Filed: 06/23/20 Page: 7 of 12 PAGEID #: 19659

_____ XJie-R&pert-rejected'thrs’clafrfrbecause absolutely no documentation was offered of any
mental illness diagnosis or treatment or of Holt’s asserted intellectual disability. Holt’s trial
attorney, Keith Golden avers “Mr. Holt never indicated or disclosed any condition(s) to the extent
he alleges in his Petition, namely that he suffered ‘from a multitude of serious mental health
disorders.’” (Affidavit, ECF No. 1644-1, PagelD 19542). Neither Mr. Golden nor his associate
attorney who was active in preparing for and trying the case ever had any question that that Holt
was competent to stand trial, much less that he was not guilty by reason of insanity. Id. at PagelD
19542-43.

The Court had significant and repeated interactions with Holt during pre-trial

proceedings and never experienced any doubt about his competency, noting several times that Holt
understood the charges and proceedings. Id.
The Court agrees with the Magistrate Judge that Ground Two is without merit. Based on
Attorney Golden extensive criminal defense experience he would have sought a competency
evaluation had Holt shown signs of incompetency as the Court would have done sua sponte had it
seen any such signs.
As to Holt’s claim that he now suffers from mental illness and intellectual disability such
that he should be placed in a mental health facility by the Bureau of Prisons, that is not relief this
Court can grant in a § 2255 proceeding.
Ground Two will therefore be dismissed on the merits with prejudice.

7

Case: 2:14-cr-00127-ALM-MRM Doc #: 1665 Filed: 06/23/20 Page: 8 of 12 PAGEID #: 19660

Gr-ound-T-hree:-Ineffective~As"sistance of Trial Counsel for Not Allowing Defendant to Testify

In his Third Ground for Relief, Holt claimed his attorney provided ineffective assistance
of trial counsel by not allowing him to testify. As the Report notes, the record thoroughly refutes
this Ground for Relief.
Holt does not claim Golden gave him professionally deficient advice on whether to testify
and the Report sets forth the advice Golden actually gave (ECF No. 1648, PagelD 19567). Instead,
as the Report notes, the Court asked Holt directly and he declined to testify (Trial Tr., ECF No.
1524, PagelD 16114-15). Based on this record, the Magistrate Judge recommended that Ground
Three should be dismissed on the merits with prejudice.
Holt still objects that he “wanted to testify on his own behalf, but counsel refused to allow
him to do so.” (Appeal, ECF No. 1653, PagelD 19605). Because the record refutes this claim, the
Report is ADOPTED as to Ground Three.

Ground Four:
Indictment

Ineffective Assistance of Counsel for Not Pursuing Dismissal of the

In his Fourth Ground for Relief, Holt alleges he received ineffective assistance because his
attorneys did not pursue his motion to suppress and his motion to dismiss the indictment “through
the Appeal Stages.” (Motion, ECF No. 1613, PagelD 19403).
As the United States acknowledged, it must meet certain conditions before proceeding in
federal court against a defendant who is younger than 21 at the time of indictment for acts that
such defendant committed before turning 18. See 18 U.S.C. §§ 5031, 5032; United States v.
Machen, 576 F. App’x 561, 562 (6th Cir. 2014). In particular, for defendants younger than 21

8

Case: 2:14-cr-00127-ALM-MRM Doc #: 1665 Filed: 06/23/20 Page: 9 of 12 PAG El D #: 19661

-when-indietedrifthexharges concern only acts committed before the age of eighteen, the United
States must “‘certif[y]’ that certain conditions are met and that federal jurisdiction is appropriate.”
Id. at 562; see also United States v. Maddox, 944 F.2d 1223, 1233 (6th Cir. 1991).
The Report concluded that a plain reading of the statute and the cited case law makes it
clear that these requirements are irrelevant for a defendant who is indicted after turning twentyone. UnitedStates v. Hoo, 825 F.2d 667, 669-70 (2nd Cir. 1987). Because Holt was under eighteen
when he murdered Battle, but over twenty-two when he was indicted, the Magistrate Judge
concluded the certification statute did not apply (Report, ECF No. 1648, PagelD 19569).
Holt objects but does not cite any case law disagreeing with the Report’s interpretation of
the statute, instead he accuses the United States “intentionally and deliberately waited until the
Petitioner was 22 years old[.]” (Appeal, ECF No. 1653, PagelD 19605). On the contrary as the
Report notes, Quincy Battle’s murder remained unsolved for four years; it was only then that
investigators began to suspect Holt. There was no showing of intentional and prejudicial pre­
indictment delay. See analysis below of Ground Five.
Accordingly, the Report is ADOPTED as to Ground Four.

Ground Five: Prosecutorial Misconduct by Deliberate Delay of Prosecution

In his Fifth Ground for Relief, Holt directly asserts the United States Attorney deliberately
delayed his prosecution until he was twenty-two and prejudiced him because “various witnesses”
were not available and because it made him triable as an adult (ECF No. 1613, PagelD 19417).
He also asserts “[cjounsel was ineffective for not pursuing this claim all the way to the United
States Supreme Court.” Id. at PagelD 19420.

9

Case: 2:14-cr-00127-ALM-MRM Doc #: 1665 Filed: 06/23/20 Page: 10 of 12 PAGEID #: 19662

-------- Prior-toTriaHhe'CODrTthorouglily considered this claim and rejected it (ECF No. 682).
The Report concluded that any claim of prosecutorial misconduct for delaying the indictment and
trial was therefore procedurally defaulted because it was not raised on direct appeal (Report, ECF
No. 1648, PagelD 19571). The Magistrate Judge also concluded HoltJhadjaot.shown ineffective
assistance of appellate counsel as excusing cause. Holt had “not even made an argument about
how this claim would have been stronger than the claims actually raised on appeal. In particular,
he has now shown why the precedent cited by Judge Marbley in denying the motion to dismiss is
not controlling or somehow distinguishable.” Id. at 19572.
^

/

=

’

Holt objects that “the government admitted it could have prosecuted Petitioner many years
earlier.. . .” (Appeal, ECF No. 1653, PagelD 19606), but,he_giv.es-no,record reference to where
such an admission can be found. Nor has he given any reason why, in light of this Court’s ruling
on pre-indictment delay, challenging that decision on appeal would have been stronger than the
arguments actually made.
Ground Five will therefore be dismissed as procedurally defaulted by failure to raise it on
appeal.

Ground Six: Ineffective Assistance of Counsel Regarding “Proffer”

In his Sixth Ground for Relief, Holt claimed he received ineffective assistance of trial
counsel when his attorneys did not allow him to “review his proffer statement” before signing it
(Motion, ECF No. 1613, PagelD 19433). The Report recommended dismissing this Ground for
Relief for lack of any factual basis (Report, ECF No. 1648, PagelD 19573).

10

i.

I;

Case: 2:14-cr-00127-ALM-MRM Doc #: 1665 Filed: 06/23/20 Page: 11 of 12 PAGEID #: 19663

-Holt-objectsrt5ut_pfovi3es no record reference to any factual basis for his claims (Appeal,
ECF No. 1653, PagelD 19607-08). As to Ground Six, the report is ADOPTED.

Ground Seven: Convictions Made Unconstitutional by United States v. Davis

In his Seventh Ground for Relief, Holt asserted his convictions are made unconstitutional
by the Supreme Court’s decision in United States v. Davis, 139 S. Ct. 2319 (2019), which found
unconstitutional the so-called “residual” clause in 18 U.S.C. § 924(c)(3)(B).The Report concluded,
contrary to Holt’s assertion, that the Government did not rely on the residual clause in this case
(ECF No. 1648, PagelD 19574).
Holt objects, but does not show any way in which the United States relied on 18 U.S.C. §
924(c)(3)(B) to support his conviction under 18 U.S.C. § 924(j) for murder in the course of a drug
trafficking crime (Appeal, ECF No. 1653, PagelD 19608).
Ground Seven will be dismissed with prejudice on the merits.

Ground Eight: Ineffective Assistance of Trial Counsel in Five Ways

In his Eighth Ground for Relief, pleaded in his Supplement, Holt makes five additional
claims of ineffective assistance of trial counsel. His arguments in support of these subclaims were
largely conclusory. For example, he claimed ineffective assistance of trial counsel in failure to
call “his alibi witnesses,” but never says who “these alibi witnesses were or what they would have
testified to” (Report, ECF No. 1648, PagelD 19575). The Magistrate Judge recommended
dismissal of Ground Eight on the merits. Id. at, PagelD 19578.

11

' Case: 2:14-cr-00127-ALM-MRM Doc#: 1665 Filed: 06/23/20 Page: 12 of 12 PAGEID#: 19664

------ —Holt-objectsrbut'}re~never names the alibi witnesses, never suggests what evidence there is
that the DNA evidence was “fabricated,” what statement Carl Nelson made that should have been
challenged, and so forth (Appeal, ECF No. 1653, PagelD 19608-09). The Objections present no
information or argument not already considered by the Magistrate Judge.
The Report is ADOPTED as to Ground Eight.

Conclusion

Having reviewed de novo those portions of the report to which specific objections was
made, the Court OVERRULES the objections and ADOPTS the Report.
As to Ground One, the sentences in this case are VACATED and the case is referred to the
United States Probation Services for a new presentence investigation. Defendant shall be returned
from his place of confinement to this District for resentencing and the Magistrate Judge resident
at Columbus performing criminal duty when this Order is filed shall appoint new counsel for
Defendant.
As to Grounds Two through Eight, they are hereby dismissed with prejudice. As to these
grounds, reasonable jurists would not disagree with dismissal, Defendant is denied a certificate of
appealability, and the Court certifies to the Sixth Circuit that any appeal would be objectively
frivolous and should not be permitted to proceed in forma pauperis.
The Clerk shall enter a separate judgement to this effect.
Dated: June 23, 2020

ALGENONsJL.) MARBLEY,
ATES DISTRICT JUDGE
CHIEF UNI
12

tWr-'k

i•

!
■*.

!•

I

l;

________ No.20-3904- _ — — UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
JOHNATHAN HOLT,
Petitioner-Appellant,
V.

UNITED STATES OF AMERICA,
Respondent-Appellee.

FILED

Jan 05, 2021
DEBORAH S. HUNT, Clerk
id
!■

)
)
)
)
)
)
)
)
)

;i
i'
;;If

ORDER

't

Before: LARSEN, Circuit Judge.

■r

■r

•i

j
it:

Johnathan Holt, a pro se federal prisoner, appeals the district court’s judgment granting in
par. and denymg in par, his motion * vacate, „ aside> or CMn;ct ^

^ ^

28 U.S.C. § 2255. Hoi, moves this court for a certificate of appealability and for leave to proceed
in forma pauperis on appeal. See Fed. R. App. P. 22(b), 24(a)(5).

■i:

A federal jury convicted Holt of murder in aid of racketeering,

in violation of 18 U.S.C.
§ 1959(a)(1), and murder through the use of a firearm during and in relation to a drug trafficking
crime, in violation of 18 U.S.C. § 924(c) and (j).

These charges arose from the shooting dfeath of
a thug dealer during a robbety in Man* 2010, shortly before Holt’s eighteenth birthday. aL the
murder remained unsolved for years, Holt became a

suspect and made incriminating statements to
investigators in August 2014, resulting in his indictment
i;
two months later. The district court
!i
subsequently sentenced Hal, to life imprisonment for foe murder
conviction along yyith a
consecutive twenty-five-year prison term for the firearm conviction,
On appeal, Holt challenged
the district court’s denial of his motion
^ .
t0 SUppress his statements to investigators arid the
sufficiency of the evidence to support his murder conviction.
This court affirmed. United^tates
v. Holt, 751 F. App’x 820, 827 (6th Cir. 2018),
cert, denied, 139 S. Ct. 1281 (2019).
Holt filed a timely § 2255 motion to
vacate raising the following grounds for relief:
.1
(1) counsel was ineffective for failing to challenge his
sentence as violating the Eighth Amendment

No. 20-3904
-2■on-the basis that he was a juvenile when he allegedly committed the offenses; (2)
counsel was
ineffective for not pursuing a mental health
examination; (3) counsel was ineffective for not
allowing him to testify on his own behalf; (4) counsel
was ineffective for not pursuing dismissal
of th!e indictment; (5) the prosecution violated his due process rights by delaying his indictment;
'1
and .(6) counsel was ineffective for not allowing him to review his proffer statement In a
supplement to his motion to vacate, Hoh chailenged his firearm conviction based on United States
v. Aprs, 139 S. Ct. 2319 (2019), and raised additional ineffective-assistance clai
I A magistrate judge recommended that Holt’s motion to

ms.

vacate be granted as to his first
ground for relief raising an Eighth Amendment challenge to his sentence and otherwise denied.
Over; Holt’s objections, the district

court adopted the magistrate judge’s report and
recommendation. With respect to Holt’s first ground for relief, the district
court vacated his
sentence and ordered
a new presentence investigation and resentencing. The district court
i:
otherwise denied Holt's motion to vacate, denied a certificate of appealability,
and denied leave to
proceed in fotma pauperis on appeal. This timely appeal followed.
i.

i Holt now moves this court for a certificate of appealability as to the claims raised in his
original motion to vacate and his claim based
I
on Davis. By failing to address the ineffectiveassistijpee claims raised in his supplement, Holt has forfeited review of those claims by this court
SeeJAckson v. United States, 45 F. App'x 382, 385 (6th Or. 2002) (per curiam); Etey , United

r

States} 205 F.3d 882, 886 (6th Cir. 2000).
ITo obtain a certificate of appealability, Holt must make “
a substantial showing of the denial
of a constitutional right" 28 U.S.C. § 2253(c)(2). Hoi, can only ••satisf[y] this standard by
demonstrating that jurists of reason could disagree with the district court's
resolution of his
issues presented are adequate to deserve
encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S.
322,327 (2003).
jUte district court reviewed Holt's ineffective-assistance claims under the two-pronged
constitutional claims or that jurists could conclude the

standard established in Strickland v. Washington, 466 U.S. 668,687 (1984), requiring him to show
(1)"thp counsel's perfbtmance was deficient" and (2) tha, counsel's “deficient performance
prejudiced [his] defense.” The performance prong required Holt to demo
representation fell below an objective standard of reasonableness.”

i:

nstrate “that counsel’s

Id. at 688. And to prevail on

No. 20-3904
*
E

-3-

this P^ong, Holt-had tO"Overc(3rne_tKe_Kstrong presumption that counsel’s conduct [fell]

within the
wide range of reasonable professional assistance.” Id. at 689. To satisfy the prejudice prong, Holt
was r|uired to “show that there is a reasonable probability that, but for counsel’s unprofessional
errors,* the result of the proceeding would have been different,” Id. at 694.

None of Holt’s

ineffei five-assistance claims has merit.
•Holt first claimed that counsel was ineffective for not pursuing a mental health
examination, asserting that he has suffered from various mental conditions, including bipolar
disorder, attention deficit/hyperactivity disorder, suicidal ideation, and hallucinations, and that he
has a low I.Q. level. But counsel’s failure to pursue a mental health examination can be ineffective
assistance only if •‘there [were] sufficiehtindicia ofincbmpetencetb give objectiveiy reasonable
counsel reason to doubt the defendant’s competency.” United States v. Dubrule, 822 F.3d 866,
hi
881 (6|h Cir. 2016) (quoting Jermyn v. Horn, 266 F.3d 257, 283 (3d Cir. 2001)). That’s not the
case htp. Holt failed to present any corroboration of his mental conditions in support of his motion
to vacate. And, according to counsel, Holt never disclosed any mental conditions

or requested a
mentaljevaluation. Furthermore, neither counsel nor the district court judge observed any signs of
incomj|ptency to warrant an evaluation. Under these circumstances, reasonable jurists could

not

debate|he district court’s conclusion that this ineffective-assistance claim lacked merit.
'Holt next claimed that counsel was ineffective for not allowing him to testify on his own
behalf |, According to counsel, Holt repeatedly raised the issue of testifying on his own behalf,
*

counse| jadvised Holt against testifying because doing so would allow the government to bring his
confession to the jury’s attention, and Flolt opted not to testify following these discussions. ‘At
no time did Mr. Holt ever insist that he be put on the witness stand.” To overcome the “ strong
presumption that trial counsel adhered to the requirements of professional conduct and left the
final decision about whether to testify with the client,” Holt must “present record evidence that he
somehqw alerted the trial court to his desire to testify.” Hodge v. Haeberlin, 579 F.3d 627, 639
(6th Cir: 2009); accord United States v. Webber, 208 F.3d 545, 551 (6th Cir. 2000). Holt failed to
presenti juch record evidence. In fact, the record establishes the opposite. During trial, the district
court advised Holt of his right to testify and asked him whether he chose to testify or not; Holt
responded that he chose “[n]ot to testify.” When asked if anyone coerced his decision, Holt
i:
i

I

No. 20-3904

!

-4-

responded that counsel advised him not to testify. After the district court explained, ‘that’s
different,” Holt answered, “No.” What’s more, even if counsel’s performance were deficient, Holt
has failed to “affirmatively prove prejudice.” Strickland, 466 U.S. at 693. Both in his petition and
before this court, he “gives no details about the substance of his testimony.” Hodge, 579 F.3d at
640. And it is likely that if he did testify, he would have been subjected to damaging! cross
examination about his confession. For these reasons, reasonable jurists could not disagree with
i:
J.
:t.-

the district court’s rejection of this ineffective-assistance claim.

Holt’s third claim was that counsel was ineffective for failing to pursue dismissal |of the
indictment based on the Federal Juvenile Delinquency Act (FJDA), 18 U.S.C. §5031 et seq. JJnder
the FJDA, “the government may not proceed against juvenile offenders in federal court uriless it
certifies that certain conditions are met.” United States v. Machen, 576 F. App’x 561, 561 (6th
j;

Cir. 2014). By its plain terms, however, the FJDA protects against proceedings related to acts of
juvenile delinquency only for “a person who has not attained his twenty-first birthday.” 18 ll.S.C.
i:

§ 5031. Thus, “the courts have consistently held that a defendant who is alleged to have committed
a crime before his eighteenth birthday may not invoke the protection of the [FJDA] if criminal
proceedings begin after the defendant reaches the age of twenty-one.” United States v. Hob, 825
F.2d 667, 669-70 (2d Cir. 1987); see Machen, 576 F. App’x at 562; United States v. Blah,SIX
F.3d 331, 344-45 (4th Cir. 2009) (collecting cases).

Likewise, the district court correctly

concluded that the FJDA’s certification requirements did not apply, because Holt was twenty-two
at the time of his indictment. Reasonable jurists could not disagree with the district court’s
f'

conclusion that this ineffective-assistance claim failed on the merits.

1.;

■li

Holt also claimed that counsel was ineffective for not allowing him to review his proffer
statement before he signed it and that the government used “the plea against [him] at trial.”
J
According to the government, Holt attempted to participate in a formal proffer wit| law
enforcement, but the proffer quickly ended when he failed to admit truthfully his involvement in
the charged offenses. Holt instead rejected the government’s plea offer and, after a formal lajler
hearing, proceeded to trial. See Lqfler v. Cooper, 566 U.S. 156 (2012). Holt failed to cite any
j.

evidence of a proffer or plea offer presented at trial. Jurists of reason would therefore agrel with
:j;

the district court’s dismissal of this claim for lacking a factual basis.

' I
■

!

i;
I;

1

No. 20-3904
-5H°lt next asserted that the prosecution violated his due

process rights by delaying his
indictment. But this claim is procedurally defaulted. Holt filed amotion to dismiss basee onpremdictment delay, arguing that he suffered substantial prejudice because the delay deprive^ him of
protections under the FJDA. Denying Holt’s motion to dismiss, the district court concluded that,
even if Holt could show substantial prejudice, he had failed to demonstrate that the government
intentionally delayed bringing charges against him for improper purposes. See United States v.
Brown, 667 F.2d 566, 568 (6th Cir. 1982) (per curiam) (“Dismissal for pre-indictment )Jelay is
warranted only when the defendant shows substantial prejudice to his right to a fair trial and that
4
*he delay was an irrientional device by the government to gain a tactical advantag
e.”).
4
Holt drd not appeal the denial of his motion to aisrhlsS. ‘Tqiaihis that could have been
raised on direct appeal, but were not, will not be entertained via

a motion under § 2255 unless the
petitioner shows: (1) cause and actual prejudice to excuse his failure to raise the claims previously;
or (2) that he is ‘actually innocent’ of the crime.” Ray v. United States, 721 F.3d 758, T^l (6th
Cir. 2013) (citation omitted). To the extent that Holt claimed ineffecti

'
ve assistance of appellate

counsel as cause for his default, he failed to overcome the presumption of effective assistance.
!f'
Only when an issue not raised °n appeal is “clearly stronger than those presented, will
the
presumption of effective assistance of appellate counsel be overcome.” Dufresne v. Painter, 876
F.3d 248,257 (6th Cir. 2017) (alteration adopted) (quoting Fautenbeny v. Mitchell, 515 F.ld 614,
642 (6th Cir. 2008)). Holt does not even attempt to make such a showing. Nor has he sho|m that
“a reasonable probability exists that inclusion of the issue would have changed the

result of the
appeal.” Henness v. Bagley, 644 F.3d 308, 317 (6th Cir. 2011). He would have faced
a“heavy
burden to prove that pre-indictment delay caused actual prejudice.”
United States v. Wright, 343
F.3d 849, 860 (6th Cir. 2003) (citation omitted). And he cannot overcome that burden here
; Thegovernment offered valid reasons for any delay, explaining that it was attributed to a “
f.
herqjilean”
investigative effort to uncover a largescale RICO
conspiracy—one that spanned nearly a dfecade,
involved twenty coconspirators, and implicated fourteen unsolved,
cold-case homicides! See
United States v. lovasco, 431 U.S. 783, 792-95 (1977); United States v. Brown, 959 F.2dfcl, 66
(6th Cir. 1992) (“[Wjhere the delay is investigative rather than intended to gain a tactical advintage
over the accused, preindictment delay d oes not offend the Fifth Amendment.”). It is also telling

il

;;
|

No. 20-3904
-6-

4

that Holt was indicted less than two months after he made his incriminating statements to law
enforcement. Jurists of reason therefore would not dispute the district court’s conclusion thatrHolt
procedurally defaulted this claim.

!

Finally, Holt asserted that his firearm conviction must be vacated in light of the Supreme
■

.

If

Court’s decision in Davis, which invalidated the residual clause definition of “crime of violence”
in 18 U.S.C. § 924(c)(3)(B) as unconstitutionally vague. 139 S. Ct. at 2336. Section S| 24(c)
prohibits a person from using or carrying a firearm “during and in relation to any crime of violence
!

■

or drug trafficking crime” or possessing a firearm “in furtherance of any such crime.” 18 IfS.C.
j:

§ 924(c)(1)(A) (emphasis added). Accordingly, Davis does not apply to Holt’s firearm conviction,
• !

because he was charged with and convicted of using or carrying a firearm during and in relation
li

y;

to a “drug trafficking crime,” rather than a “crime of violence.” Reasonable jurists could not debate
the district court’s denial of Holt’s Davis claim. Indeed, this court has rejected Holt’s theorjitime
ill

and again. l

!i.

For these reasons, this court DENIES Holt’s motion for a certificate of appealability and
![.
DENIES as moot his motion for leave to proceed in forma pauperis.
;

ENTERED BY ORDER OF THE COURT

|!
I:

!

i

Deborah S. Hunt, Clerk

n
i

See, e.g., In re Brooks, No. 20-5701, 2020 U.S. App. LEXIS 37311, at *3 (6th Cir. Ncy. 25,
2020); In re Thomas, No. 20-3663,2020 U.S. App. LEXIS 36573, at *3 (6th Cir. Nov. 19, 2020);
In re Allen, No. 20-5667, 2020 U.S. App. LEXIS 33763, at *2-3 (6th Cir. Oct. 26, 2020) In re
Cherry, No. 20-1145, 2020 U.S. App. LEXIS 22752, at *3 (6th Cir. July 21, 2020); Rolley v.
United States, No. 20-5140, 2020 U.S. App. LEXIS 20838, at *4 (6th Cir. July 2, 2020)- In re
Culp, No. 20-1004,2020 U.S. App. LEXIS 20393, at *3 (6th Cir. June 29, 2020); In re Young, No.
20-1046, 2020 U.S. App. LEXIS 18872, at *3 (6th Cir. June 15, 2020); In re Bearden, No. 195962, 2019 U.S. App. LEXIS 38651, at *3 (6th Cir. Dec. 27, 2019); Phillips v. Warden, USP
McCreary, No. 19-5295, 2019 U.S. App. LEXIS 31997, at *4 (6th Cir. Oct. 24,2019); see also In
re Navarro, 931 F.3d 1298, 1302 (11th Cir. 2019) (same).
i

Wf*- c “
Case: 2:14-cr-00127-ALM-MRM Doc #: 1648 Filed: 01/21/20 Page: 1 of 22 PAGEID #: 19557
■v

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION AT COLUMBUS
UNITED STATES OF AMERICA,
Plaintiff,

Case No. 2:14-cr-127
Also 2:19-cv-3089
Chief Judge Algenon L. Marbley
Magistrate Judge Michael R. Merz

vs
JOHNATHAN HOLT,
Defendant.

REPORT AND RECOMMENDATIONS

This is an action on a Motion to Vacate Defendant Johnathan Holt’s criminal conviction
under 28 U.S.C. § 2255. The Motion is ripe for decision on the Motion itself (ECF No. 1613),
Defendant’s Supplement (ECF No. 1621), the Response and Answer of the United States
(“Answer,” ECF No. 1644) and Defendant’s Reply (ECF No. 1646).
The Magistrate Judge reference in the case has recently been transferred to the undersigned
to help balance the Magistrate Judge workload in the District (ECF No. 1647). The case remains
assigned to Chief Judge Algenon L. Marbley for final decision.

1

Case: 2:14-cr-00127-ALM-MRM Doc #: 1648 Filed: 01/21/20 Page: 2 of 22 PAGEID #: 19558

Litigation History

In March 2010 a drug dealer named Quincy Battle was shot and killed by Defendant Holt
and a man named Christopher Wharton during an attempt to rob Battle of fifteen pounds of
marijuana. At the time of the killing, Holt was two weeks shy of his eighteenth birthday.
The murder remained unsolved for some time. Four years later, suspecting Holt was
involved in the murder, investigators obtained a grand jury subpoena for Holt to appear at the
federal courthouse for a DNA sample, fingerprints, and a: photograph. (Suppression Hrg. Tr., ECF
No. 1090, PagelD 8747-48, 8751-53.) While there, Holt made a damaging statement about his
involvement in the Battle murder.
In October 2014, a federal grand jury indicted Holt for murder in aid of racketeering in
violation of 18 U.S.C. § 1959(a)(1) and murder with a firearm during a drug trafficking crime in
violation of 18 U.S.C. § 924(j). (Superseding Indictment, ECF No. 300, PagelD 1204-07.) After
a four-day trial at which Holt did not testify, the jury found him guilty on both counts. The Court,
after considering a Presentence Investigation Report, then sentenced Holt to a term of life in prison
for murder in aid of racketeering (Count 19) and a consecutive 25-year prison term for murder
with a firearm during a drug-trafficking crime (Count 20) (Judgment, ECF No. 1413, PagelD
14397-98.)
With the assistance of new counsel, Holt appealed to the Sixth Circuit which affirmed,
United States v. Holt, 751 F. App’x 820, 821 (6th Cir. 2018). Holt unsuccessfully sought review
by the United States Supreme Court which denied certiorari on February 25,2019 (ECF No. 1610).

1 In his Motion, Holt recites his sentence as two life terms plus twenty-five years (ECF No. 1613, PagelD 19396).
The Judgment makes clear that the sentence is as stated in this paragraph (ECF No. 1413, PagelD 14398).

2

Case: 2:14-cr-00127-ALM-MRM Doc #: 1648 Filed: 01/21/20 Page: 3 of 22 PAG El D #: 19559

I---- Holt then-filed this~§2255'M0t:ion on July 15,^0 f9 (ECF No. 1613) and supplemented it on August
6, 2019 (ECF No. 1621).2
On motion of the United States, Magistrate Judge Vascura ordered Defendant to file a
waiver of attorney-client communication privilege as to his ineffective assistance of counsel claims
(ECF No. 1616). Holt made that waiver as part of his motion for an evidentiary hearing (ECF No.
1625). Judge Vascura denied an evidentiary hearing without prejudice to a renewed request, but
none has been made (ECF No. 1627). The Government accompanied its Answer with a detailed
affidavit from trial attorney Keith Golden (ECF No. 1644). Defendant then filed a timely Reply
(ECF No. 1646), rendering the case ripe for decision.

Analysis

Holt pleads the following claims for relief:
Ground One: Counsel was ineffective based on whether
Petitioner’s multi-LIFE terms plus 25 years is in violation of his
Eighth Amendment Rights as a Juvenile.
Supporting Facts: Petitioner was a juvenile when the offenses
charged were allegedly committed. He is serving multi-LIFE terms
in violation of his Eighth Amendment Rights under the United
States Constitution as a result of being a juvenile at the time of
these charges.
Ground Two: Counsel was ineffective for NOT pursuing a
mental health evaluation/examination on Petitioner’s behalf.

2 Both the Motion to Vacate and the Supplement were filed within the statute of limitations, a point the Government
does not contest. Because the Supplement was filed before the Government answered, Defendant did not require
Court permission to amend under Fed.R.Civ.P. 15.

3

Case: 2:14-cr-00127-ALM-MRM Doc #: 1648 Filed: 01/21/20 Page: 4 of 22 PAGEID #: 19560

““^SupportingFacts: Counsel was ineffective for not pursuing a
Mental Health Evaluation/Examination- based on Petitioner's
advice that he suffered from a multitude of serious Mental health
Disorders.
Ground Three: Counsel was ineffective for not allowing the
petitioner to testify on his own behalf.
Supporting Facts: Whether Counsel was ineffective for not
allowing the petitioner to testify on his own behalf.
Ground Four: Counsel was ineffective for not pursuing
suppression and Dismisal [sic] of Petitioner’s Indictment.
Supporting Facts: Counsel violated Petitioner's Sixth
Amendment Rights for not pursuing Petitioner's Motion through
the Appeal Stages.
(Motion, ECF No. 1613, PagelD 19399-403).
In his Memorandum in Support of the Motion and in his Supplement, Holt makes additional
unnumbered claims which will be numbered here for ease of reference.
Ground Five: “The Government prejudiced the Petitioner’s Right
to a fair trial by the deliberate delay.” The delay was the result of
prosecutorial misconduct and Holt received ineffective assistance of
trial counsel when his attorney did not pursue this claim.
Ground Six:3 Whether counsel was ineffective for not allowing the
petitioner to review his proffer statement from the government after
the interrogation of the petitioner, before signing such documents
involuntarily, unknowingly, and unintelligently.
(Memorandum, ECF No. 1613, PagelD 19417,19420,19433.)
In his Supplement, Holt adds two claims including a new claim of ineffective assistance of
trial counsel with multiple subclaims.

3 Labeled as Argument Five in the Memorandum of Law.

4

Case: 2:14-cr-00127-ALM-MRM Doc #: 1648 Filed: 01/21/20 Page: 5 of 22 PAG El D #: 19561

Ground Seven: Defendant’s convictions are unconstitutional
under United States v. Davis, 139 S. Ct. 2319 (June 24, 2019).
Ground Eight: Ineffective assistance of trial counsel
(a) for not calling alibi witnesses;
(b) for not challenging fabricated DNA evidence;
(c) for not challenging the statement of Carl Nelson, including by
calling Jeremiah Jones as a witness;
(d) by telling the Court that Holt could not come to his
arraignment, despite Holt not authorizing him to say so; and
(e) by not pursuing Holt’s testimony4 that he was an eyewitness
and only saw one person shoot his friend.
Supplement, ECF No. 1621, PagelD 19454-56.
None of Defendant’s pleadings is sworn to, nor has he provided an affidavit from himself
or any of the witnesses or possible mental health experts as to what their testimony would have
been had they been called. The only sworn evidence before the Court is the Affidavit of Attorney
Keith Golden, Defendant’s attorney at trial and sentencing.
Most of Holt’s claims are for ineffective assistance of counsel. The governing standard for
ineffective assistance is found in Strickland v. Washington, 466 U.S. 668 (1984):
A convicted defendant's claim that counsel’s assistance was so
defective as to require reversal of a conviction or death sentence has
two components. First, the defendant must show that counsel s
performance was deficient. This requires showing that counsel was
not functioning as the “counsel” guaranteed the defendant by the
Sixth Amendment. Second, the defendant must show that the
deficient performance prejudiced the defense. This requires
showing that counsel’s errors were so serious as to deprive the
defendant of a fair trial, a trial whose result is reliable. Unless a
defendant makes both showings, it cannot be said that the conviction
or death sentence resulted from a breakdown in the adversary
process that renders the result unreliable.
4 Since Holt did not testify, presumably he is referring to something he told the police at the time he gave his DNA
sample.

5

Case: 2:14-cr-00127-ALM-MRM Doc #: 1648 Filed: 01/21/20 Page: 6 of 22 PAGEID #: 19562

Id. at 687. In other words, to establish ineffective assistance, a defendant must show both deficient
performance and prejudice. Berghuis v. Thompkins, 560 U.S. 370, 389 (2010), citing Knowles v.
Mirzayance, 556 U.S.l 11 (2009).
With respect to the first prong of the Strickland test, the Supreme Court has commanded:
Judicial scrutiny of counsel's performance must be highly
deferential.... A fair assessment of attorney performance requires
that every effort be made to eliminate the distorting effects of
hindsight, to reconstruct the circumstances of counsel’s challenged
conduct, and to evaluate the conduct from counsel’s perspective at
the time. Because of the difficulties inherent in making the
evaluation, a court must indulge a strong presumption that counsel's
conduct falls within a wide range of reasonable professional
assistance; that is, the defendant must overcome the presumption
that, under the circumstances, the challenged action “might be
considered sound trial strategy.”
466 U.S. at 689.
As to the second prong, the Supreme Court held:
The defendant must show that there is a reasonable probability that,
but for counsel’s unprofessional errors, the result of the proceeding
would have been different. A reasonable probability is a probability
sufficient to overcome confidence in the outcome.
466 U.S. at 694. See also Darden v. Wainwright, 477 U.S. 168, 184 (1986), citing Strickland, 466
U.S. at 688, 694; Wongv. Money, 142 F.3d 313, 319 (6th Cir. 1998), citing Strickland, 466 U.S. at
687, 689-90, 694; Blackburn v. Foltz, 828 F.2d 1111,1180 (6th Cir. 1987), quoting Strickland, 466
U.S. at 687.
In assessing prejudice under Strickland, the question is not whether
a court can be certain counsel's performance had no effect on the
outcome or whether it is possible a reasonable doubt might have
been established if counsel acted differently. See Wong v.
Belmontes, 558 U.S. 15, 27,130 S. Ct. 383, 175 L.Ed.2d 328 (2009)
6

Case: 2:14-cr-00127-ALM-MRM Doc #: 1648 Filed: 01/21/20 Page: 7 of 22 PAG El D #: 19563

~^peTc\mSn)r^dckland, 466 U.S. at 693, 104 S. Ct. 2052, 80 L.
Ed. 2d 674. Instead, Strickland asks whether it is “reasonably likely”
the result would have been different. Id., at 696,104 S. Ct. 2052, 80
L. Ed. 2d 674. This does not require a showing that counsel's actions
“more likely than not altered the outcome,” but the difference
between Strickland's prejudice standard and a more-probable-thannot standard is slight and matters “only in the rarest case.” Id., at
693, 697, 104 S. Ct. 2052, 80 L. Ed. 2d 674. The likelihood of a
different result must be substantial, not just conceivable. Id., at 693,
104 S. Ct. 2052, 80 L. Ed. 2d 674.
Harrington v. Richter, 562 U.S. 86, 111-112 (2011).
Counsel’s performance is measured by “prevailing professional norms” at the time of the
alleged errors. Strickland, supra, at 690; Maryland v. Kulbicki, 577 U.S.__ , 136 S. Ct. 2, 4
(2015); Rickman v. Bell, 131 F.3d 1150, 1154 (6th Cir. 1997). Kulbicki rejects retrospective
perfectionism regarding lawyer’s conduct and notes the difference between finding forensic
material in 1995 and 2015.

Ground One: Imposition of Mandatory Life Sentence for a Crime Committed while a
Juvenile
In his First Ground for Relief, Holt claims that because he committed this crime while he
was still a juvenile, the Cruel and Unusual Punishment Clause of the Eighth Amendment prohibits
imposing a mandatory life sentence on him and his attorney provided ineffective assistance of trial
counsel when he did not raise this Eighth Amendment claim.
The Government concedes that there is merit in part of the First Ground.
[Bjecause the Eighth Amendment’s restrictions on imposing a
mandatory life term without parole on Count 19 for a crime
committed as a juvenile were not called to the Court’s attention, this
Court should vacate Holt’s sentence and conduct a resentencing
7

Case: 2:14-cr-00127-ALM-MRM Doc #: 1648 Filed: 01/21/20 Page: 8 of 22 PAGEID #: 19564

hearing. While a discretionary life sentence remains an available
option for homicides committed as a juvenile, resentencing is
necessary to permit consideration of Holt’s youth as required by
Miller v. Alabama, 567 U.S. 460, 465 (2012).
Answer, ECF No. 1644, PagelD 19524. The basis of the concession is that Miller held it is a
violation of the Eighth Amendment’s Cruel and Unusual Punishment Clause to impose a
mandatory life sentence without the possibility of parole on a person for a crime he or she
committed while a juvenile. Because Miller was handed down before Holt’s trial and sentencing,
it was deficient performance by trial counsel not to call Miller to the Court’s attention and the
failure was prejudicial because Holt was in fact sentenced to life imprisonment under an
understanding that that was the mandatory sentence for committing murder in aid of racketeering.
The Government also concedes that “[bjecause the sentence on the § 1959 count may have
impacted the sentence on the § 924(j) count [murder in the course of drug trafficking], resentencing
on both counts is appropriate.” (Response, ECF No. 1644, PagelD 19530, citing Pasquarille v.
United States, 130 F.3d 1220,1222 (6th Cir. 1997). In his Reply, Holt offers no opposition to this
analysis, but merely “requests resentencing without an excessive sentence.” (ECF No. 1646,
PagelD 19547).
The Magistrate Judge therefore recommends that the Motion to Vacate be GRANTED as
to Ground One. The Court should refer the case for an amended Presentence Investigation Report
and appoint counsel to represent Holt in the sentencing process.

8

Case: 2:14-cr-00127-ALM-MRM Doc #: 1648 Filed: 01/21/20 Page: 9 of 22 PAGEID #: 19565

Ground Tw orlriefTective Assistance of Trial Counsel for Failure to Pursue a Mental Health
Evaluation
In his Second Ground for Relief, Holt claims his trial attorney provided ineffective
assistance of trial counsel when he did not pursue a mental health evaluation.
In the Motion, Holt claims a number of mental health problems. He asserts he was at some
undisclosed point in time diagnosed as having Attention Deficit Hyperactivity Disorder (ADHD)
and as a child with major depression which became worse when he was shot and paralyzed in 2010
(ECF No. 1613, PagelD 19415). He claims an intelligence quotient below 60 and numerous
academic problems as well as suicidal ideation and attempts. Id. “Petitioner also states that he
was in a psychiatric hospital and suffers from auditory / visual hallucinations that urge him to do
stupid things.” Id. at PagelD 19416. The inmate who prepared the Motion on Holt’s behalf offers
the following opinion: “In summary it is my understanding from talking with him as another
inmate and reviewing his legal file that he was definitely denied proper counsel in reference to
establishing his mental competency at the time of the shooting, indictment, and subsequently the
trial.” Id.
Absolutely no documentation is offered of any mental illness diagnosis or treatment or of
Holt’s asserted intellectual disability. Everything in the Motion on this issue is pure assertion
without any corroboration.
In contrast, Attorney Golden avers “Mr. Holt never indicated or disclosed any condition(s)
to the extent he alleges in his Petition, namely that he suffered ‘from a multitude of serious mental
health disorders.’” (Affidavit, ECF No. 1644-1, PagelD 19542). Neither Mr. Golden nor his
associate attorney who was active in preparing for and trying the case ever had any question that

9

Case: 2:14-cr-00127-ALM-MRM Doc #: 1648 Filed: 01/21/20 Page: 10 of 22 PAGEID #: 19566

——that-Holtwasxompetentto'staiKilTial,lSuc^ess that hewas not guiltybyreason of insanity.5 Id.
at PagelD 19542-43.
As the Government notes, Judge Marbley had significant and repeated interactions with
Holt during pre-trial proceedings and never expressed any doubt about his competency, noting
several times that Holt understood the charges and proceedings.
On the record before the Magistrate Judge, Ground Two is without merit. Mr. Golden has
been a Criminal Justice Act attorney for this Court for more than thirty years. Had Holt shown
signs of incompetency during his pre-trial interactions, Golden would undoubtedly have sought a
competency evaluation. Whatever Golden did or did not do, Chief Judge Marbley would
undoubtedly have ordered a competency evaluation sua sponte if he had reason to doubt Holt’s
competency. As to mental health information that might have been used in mitigation at
sentencing, Holt does not claim he ever presented any such documented information to Golden or
to the Probation Department.
Ground Two should be dismissed on the merits with prejudice.

Ground Three: Ineffective Assistance of Trial Counsel for Not Allowing Defendant to Testify

In his Third Ground for Relief, Holt claims his attorney provided ineffective assistance of
trial counsel by not allowing him to testify. The record thoroughly refutes this Ground for Relief.

5 Briefly, mental health conditions can be relevant in several different ways in a criminal case, A defendant can be
not guilty by reason of insanity where a mental illness or disease prevents him from forming the required mental
state for committing a crime. Such a finding results in his involuntary commitment for treatment. John Hmckley is
probably the most familiar example. Or a person may be by reason of mental illness unable to understand the
proceedings and assist in his defense. Such a person is declared incompetent and treated until his competency is
restored. Finally, a person with a sufficiently severe intellectual disability is ineligible for the death penalty. Atkins
v. Virginia, 536 U.S. 304 (2002). It appears from his Motion that Holt is asserting all three of these mental
conditions.

10

Case: 2:14-cr-00127-ALM-MRM Doc #: 1648 Filed: 01/21/20 Page: 11 of 22 PAGEID #: 19567

It is elearfronrthe Mot ion That Holt is not claiming his attorney gave him unprofessional
advice on whether or not to testify. Indeed, Holt does not state what advice Golden gave him on
this issue, nor does he state what his testimony would have been (Motion, ECF No. 1613, PagelD
19424-26). In contrast, Attorney Golden is clear on the advice he gave Holt:
Mr. Holt did raise the question of testifying on his own behalf on
several occasions with us. In each instance we discussed in detail
with him his 5th Amendment rights to include the pros and cons of
his testimony. We reiterated to him the many issues that he would
be exposed to on cross-examination, most significantly his prior
admission to law enforcement during his interview that he shot the
murder victim. In each and every instance we advised Mr. Holt of
our position that he should not waive his right not to testify. Rather,
his placing himself on the witness stand would only serve to benefit
the Government in bringing to the attention of the j ury that Mr. Holt
had confessed to the murder. Following each of these discussions,
Mr. Holt chose not to waive his right and opted not to testify. At no
time did Mr. Holt ever insist that he be put on the witness stand. Had
he insisted, we would have first provided him with a letter outlining
the protections afforded by the 5th Amendment, the risks associated
with it, and the topics he will be cross-examined on as well as any
prior statements he may have made related to the offense. In
addition, we would have requested an ex parte hearing in order to
place in the record the fact that we advised Mr. Holt of his rights,
that Mr. Holt was intelligently and knowingly waiving his rights,
and that his testifying was contrary to our advice.
(Affidavit, ECF No. 1644-1, PagelD 19543-44).
A defendant in a criminal case has a Sixth Amendment right to testify in his own defense.
Equally or more important is his Fifth Amendment right not to testify and not to have his silence
held against him. A defendant is never asked in front of the jury about this question because a
negative answer might cause the jury to suppose he had something to hide. Because of this, a
defendant is presumed to have waived his right to testify unless the record contains evidence
indicating otherwise. Hodge v. Haeberlin, 579 F.3d 627, 640 (6th Cir. 2009) (citing United States
11

Case: 2:14-cr-00127-ALM-MRM Doc #: 1648 Filed: 01/21/20 Page: 12 of 22 PAGEID #: 19568

—v.-fFe/>£er,-208'F-r3d"545r55 r(6th Cir. 2000))". At the very least, the “defendant must alert the trial
court that he desires to testify or that there is a disagreement with defense counsel regarding
whether he should take the stand.” Id., quoting Webber, 208 F.3d at 551. That never happened in
this case. When the question was put to him directly by Judge Marbley, Holt declined to testify
(Trial Tr., ECF No. 1524, PagelD 16114-15). At the same point in trial, Holt acknowledged that
Golden had advised him not to testify. Judge Marbley was required to ask Holt directly because
the decision of whether to testify is an issue a defendant must decide personally, as is true of
whether to try the case to a jury or to the bench.6
Even if it had been deficient performance to advise Holt not to testify, Holt has not shown
he was prejudiced thereby and has thus not proven the second prong of the Strickland test. In
particular, he has not told the Court what he would have testified to and why any testimony by him
would not have been subject to devastating cross-examination based on his confession.
Ground Three should be dismissed on the merits with prejudice.

Ground Four:
Indictment

Ineffective Assistance of Counsel for Not Pursuing Dismissal of the

In his Fourth Ground for Relief, Holt alleges he received ineffective assistance because his
attorneys did not pursue his motion to suppress and his motion to dismiss the indictment “through
the appeal stages.” (Motion, ECF No. 1613, PagelD 19403). This Ground for Relief could be read
as alleging ineffective assistance of appellate counsel, but the Motion makes it clear that Holt is

6 While a defendant must decide for himself or herself whether to waive a jury, the defendant’s decision on this
question is not effective unless the United States Attorney agrees. In contrast, the Government cannot force a
defendant to exercise his Fifth Amendment right not to testify by calling him to the stand and making him decline in
front of the jury.

12

Case: 2:14-cr-00127-ALM-MRM Doc#: 1648 Filed: 01/21/20 Page: 13 of 22 PAG El D #: 19569

—complainingofwharwas ndT3one with this issue in the trial court, e.g., by not asking for a jury
instruction on ratification.
As the United States acknowledges, it must meet certain conditions before proceeding in
federal court against a defendant who is younger than 21 at the time of indictment for acts that
such defendant committed before turning 18. See 18 U.S.C. §§ 5031, 5032; United States v.
Machen, 576 F. App’x 561,562 (6th Cir. 2014). In particular, for defendants younger than 21 when
indicted, if the charges concern only acts committed before the age of 18, the United States must
“‘certif[y]’ that certain conditions are met and that federal jurisdiction is appropriate[,]” but if the
charges concern a “participation in a conspiracy that spanned his eighteenth birthday[,]” the United
States may proceed without certification as long as it makes a ‘“threshold showing’ that the
defendant ‘ratified’ his participation in the conspiracy after he turned eighteen.” Machen, 576 F.
App’x at 562; see also United States v. Maddox, 944 F.2d 1223, 1233 (6th Cir. 1991).
A plain reading of the statute and this case law makes it clear that these requirements are
irrelevant for a defendant who is indicted after turning 21. United States v. Hoo, 825 F.2d 667,
669-70 (2nd Cir. 1987). Although Holt was under eighteen when he murdered Battle, he was over
twenty-two when he was indicted. This claim therefore fails on the merits.
Ground Four should be dismissed on the merits.

Ground Five: Prosecutorial Misconduct by Deliberate Delay of Prosecution

In his Fifth Ground for Relief, Holt asserts the United States Attorney deliberately delayed
his prosecution until he was twenty-two and prejudiced him because “various witnesses” were not
available and because it made him triable as an adult (ECF No. 1613, PageDD 19417). He also

13

case: 2:14-cr-00127-ALM-MRM Doc #: 1648 Filed: 01/21/20 Page: 14 of 22 PAGEID #: 19570

asserte-“[c]ounseiwas'ineffecfive for not pursuing this claim all the way to the United States
Supreme Court.” Id. at PagelD 19420.
Holt’s first trial attorney moved to dismiss the indictment on the basis of pre-indictment
delay (Motion to Dismiss, ECF No. 435). Judge Marbley thoroughly considered that Motion and
denied it in a written opinion in which he found that Holt (and other Defendants) had proven
neither substantial prejudice nor intentional delay to gain a tactical advantage (ECF No. 682,
PagelD 3034). Chief Judge Marbley held
[T]o demonstrate substantial prejudice from a “missing witness,”
defendants must identify which witnesses would have testified;
describe what testimony they would have offered; and explain why
that testimony was exculpatory and otherwise unavailable from
other sources. See, e.g., [United States v.J Rogers, 118 F.3d [466,]
475 (6th Cir. 1997); United States v. Vaughn, 444 F. App’x 875, 87879 (6th Cir. 2011); United States v. Duncan, 763 F.2d 220, 222 (6th
Cir. 1985).
Id. at PagelD 3052. Defendants failed to meet that burden because they had “failed to identify a
single witness who is no longer available (or willing) to testify.” Id. Regarding the intentional
delay prong of the test, he held:
Here, the Government has explained its delay as “a herculean
investigatory effort” to uncover a massive RICO conspiracy—one
that spanned nearly a decade and that included the investigation of
fourteen “unsolved, cold-case homicides.” (Doc. 658). The
Government notes that the FBI’s investigation of the alleged
conspiracy did not begin in earnest until 2012 and initially resulted
in a series of drug-related prosecutions in late 2013. (Id.) Only then
did the Government obtain information and cooperating witnesses
that, combined with a renewed focus on the Short North Posse,
resulted in the filing of the original Indictment in 2014. (Id.) Given
the magnitude and complexity of this case, the Court has no reason
to doubt the Government’s representations and finds its proffered
reasons for delay valid.

14

Case: 2:14-cr-00127-ALM-MRM Doc #: 1648 Filed: 01/21/20 Page: 15 of 22 PAGEID #: 19571

M_atJBageID--3054.—
To the extent Holt is now making a direct claim of prosecutorial misconduct, that claim is
barred by his procedural default in failing to present it to the Sixth Circuit on direct appeal. A
motion to vacate under § 2255 is not a substitute for direct appeal. United States v. Duhart, 511
F.2d 7 (6th Cir. 1975); DiPiazza v. United States, 471 F.2d 719 (6th Cir. 1973). Therefore, absent
manifest injustice or special circumstances such as a change in the law, § 2255 motions will be
dismissed summarily if they raise claims that were or might have been asserted on direct review.
Reedv. Farley, 512 U.S. 339, 358 (1994).
Claims that could have been raised on direct appeal, but were not,
will not be entertained via a motion under § 2255 unless the
petitioner shows: (1) cause and actual prejudice to excuse his failure
to raise the claims previously; or (2) that he is “actually innocent”
of the crime.
Ray v. United States, 721 F.3d 758, 761 (6th Cir. 2013), citing Bousley v. United States, 523 U.S.
614, 622 (1998.
To the extent Holt is claiming that the failure to raise this claim on direct appeal is excused
by the ineffectiveness of his appellate counsel, he has not established such a claim. A criminal
defendant is entitled to effective assistance of counsel on appeal as well as at trial. Evitts v. Lucey,
469 U.S. 387 (1985). The Strickland test applies to appellate counsel. Smith v. Robbins, 528 U.S.
259, 285 (2000); Burger v. Kemp, 483 U.S. 776 (1987). “To evaluate a claim of ineffective
assistance of appellate counsel, then, the court must assess the strength of the claim that counsel
failed to raise.” Henness v. Bagley, 644 F.3d 308, 311 (6th Cir. 2011), citing Wilson v. Parker, 515
F.3d 682, 707 (6th Cir. 2008). “Counsel’s failure to raise an issue on appeal amounts to ineffective
assistance only if a reasonable probability exists that inclusion of the issue would have changed
the result of the appeal.” Id., citing Wilson, 515 F.3d at 707.

15

Case: 2:14-cr-00127-ALM-MRM Doc #: 1648 Filed: 01/21/20 Page: 16 of 22 PAGEID #: 19572

_

_ Theattorneymeed-not-advancereveryargument, regardless of merit, urged by the appellant.

“Experienced advocates since time beyond memory have emphasized the importance of
winnowing out weaker arguments on appeal and focusing on one central issue if possible, or at
most on a few key issues.” Jones v. Barnes, 463 U.S. 745, 751-752 (1983). Effective appellate
advocacy is rarely characterized by presenting every non-ffivolous argument which can be made.
See, e.g., Smith v. Murray, All U.S. 527 (1986); Williams v. Bagley, 380 F.3d 932, 971 (6th Cir.
2004); Joshua v. DeWitt, 341 F.3d 430,441 (6th Cir. 2003).; “Only when ignored issues are clearly
stronger than those presented will the presumption of effective assistance of [appellate] counsel be
overcome.” Dufresne v. Palmer, 876 F.3d 248, 257 (6th Cir. 2017), quoting Fautenberry v.
Mitchell, 515 F.3d 614, 642 (6th Cir. 2008).
Holt has not even made an argument about how this claim would have been stronger than
the claims actually raised on appeal. In particular, he has now shown why the precedent cited by
Judge Marbley in denying the motion to dismiss is not controlling or somehow distinguishable.
Ground Five should be dismissed as procedurally defaulted by failure to raise it on appeal.

Ground Six: Ineffective Assistance of Counsel Regarding “Proffer”

In his Sixth Ground for Relief, Holt claims he received ineffective assistance of trial
counsel when his attorneys did not allow him to “review his proffer statement” before signing it
(Motion, ECF No. 1613, PagelD 19433). Holt then alleges that he never said anything to the
Government that was transcribed and signed by him. Id. He then proceeds to discuss possible plea
agreements and claims the proffer statement should never have been used against him. Id. at
PagelD 19434.

16

Case: 2:14-cr-00127-ALM-MRM Doc #: 1648 Filed: 01/21/20 Page: 17 of 22 PAGEID #: 19573

The Go_vemxnent-responds-by-assertmg_“fa]! rfcTtimeinthe trial was any evidence of a
proffer introduced nor was there any testimony regarding any plea agreement or any plea offer.
Moreover, in his affidavit, Attorney Golden specifically states that there was no Rule 11 proffer
during his representation of Holt.” (Response, ECF No. 1644, PagelD 19536).
In his Reply, Holt repeats, virtually verbatim, what he said on this point in the Motion. He
makes no reference to any place in the record where any “proffer” statement was used against him.
Instead, he repeats allegations about plea negotiations which occurred while he was represent by
Attorney Saia (Reply, ECF No. 1646, PagelD 19551-52). Regarding these negotiations, the United
States wrote in its Response:
While represented by Jon Saia in November 2015, Holt did attempt
to participate in a formal proffer with law enforcement during the
time he was considering a guilty plea. Early on in this meeting, Holt
failed to truthfully admit his involvement in the offenses charged
and the proffer quickly ended. Shortly after, Holt then decided to
reject the offered plea agreement and proceed to trial. The Court
conducted at least two Lafler hearings for Holt to ensure his decision
to proceed to trial was a knowing and voluntary choice. These
hearings included discussions of all the details of the proposed plea
agreements and the specific deadline where the offer would be
revoked. (See R. 1512, Lafler Transcript, 14915-25; minute entry,
Aug. 4, 2016.) None of this was mentioned at trial.
ECF No. 1644, PagelD 19536, n.2. Holt does nothing in his Reply to refute this factual narrative.
More importantly, he cites no place in the record that refutes the Government’s statement that no
“proffer” was used against him.
Ground Six should therefore be dismissed on the merits as lacking any factual basis.

17

Case: 2:14-cr-00127-ALM-MRM Doc #: 1648 Filed: 01/21/20 Page: 18 of 22 PAGEID #: 19574

Ground Seven:_Convictions4VIadeTJnconstituti6ffaITjy77/f/te</ States v. Davis

In his Seventh Ground for Relief, Holt asserts his convictions are made unconstitutional by
the Supreme Court’s decision in United States v. Davis, 139 S. Ct. 2319 (2019).
Holt’s second count of conviction in this case was for committing murder in the course of
a drug trafficking crime in violation of 18 U.S.C. § 924(j). That statute provides that any person
who, in the course of violating 18 U.S.C. § 924(c), “cause[d] the death of a person through the use
of a firearm, shall— if the killing is a murder (as defined in [18 U.S.C. §] 1111) be punished by
death or imprisonment for a term of years or for life.
Holt claims the Government relied for his conviction on the so-called residual clause of 18
U.S.C. § 924(c)(3)(B), which the Supreme Court in Davis found to be unconstitutionally vague
(Supplement, ECF No. 1621, PagelD 19454). However, the Government did not rely on that
residual clause, which defines a “crime of violence” as any crime “that by its nature, involves a
substantial risk that physical force against the person or property of another may be used in the
course of committing the offense.” Instead, the Government relied on the predicate offense of
conspiring to possess with intent to distribute marijuana, which is a drug trafficking offense, not a
“crime of violence.” (See Indictment, Count Twenty, ECF No. 300, PagelD 1206-07). The
Supreme Court has never declared the statutory phrase “drug trafficking crime” to be
unconstitutionally vague.
Ground Seven should be dismissed as without merit.

Ground Eight: Ineffective Assistance of Trial Counsel in Five Ways

18

Case: 2:14-cr-00127-ALM-MRM Doc #: 1648 Filed: 01/21/20 Page: 19 of 22 PAGEID #: 19575

_____ In his Eighth,Ground^or-R-diefrpieaded~itrHis~Supplement Holt makes five additional
claims of ineffective assistance of trial counsel. They are stated in summary fashion and can be
analyzed in the same manner.

Failure to Call Alibi Witnesses

Holt asserts his trial attorney provided ineffective assistance of trial counsel by not calling
his alibi witnesses (ECF No. 1621, PagelD 19454). Holt never says who these alibi witnesses
were or what they would have testified to, much less providing any proof that such witnesses
would have provided a viable alibi.

Failure to Challenge Fabricated DNA Document Evidence

Holt alleges ineffective assistance of trial counsel in not challenging “the fabricated DNA
document evidence” and complain s of stipulations he did not agree to (ECF No. 1621, PagelD
19455). A set of written stipulations is filed at ECF No. 1346 and signed by both Golden and Holt.
Holt has not suggested anything about the stipulations that is untrue or could not have been easily
proven by the Government. He has thus not shown any deficient performance by Golden or any
resulting prejudice.

19

Case: 2:14-cr-00127-ALM-MRM Doc #: 1648 Filed: 01/21/20 Page: 20 of 22 PAGEID #: 19576

Failure to Challenge the Statement of Carl Nelson

Holt alleges Carl Nelson is the owner of the .22 caliber murder weapon (Supplement, ECF
No. 1621, PagelD 19455). He alleges the police recovered the weapon from Nelson’s home and
that Nelson’s later statement under oath in some court proved the “Columbia [sic] Police
Department fabricated the discovery documents.” Id. Holt’s attorney is alleged to have provided
ineffective assistance of trial counsel by his “refiiasal to challenge these documents in full” and
not calling Jeremiah Jones as a witness in regards to Nelson’s testimony. All of this is completely
conclusory. What was Nelson’s statement? How does it prove the police fabricated discovery?
What would Jones have testified to? As pleaded in the Supplement, these facts do not begin to
show any ineffective assistance of trial counsel in regard to the murder weapon.

Advising the Court Without Holt’s Permission that He Could Not Attend His Arraignment

Holt claims he was provided ineffective assistance of trial counsel when his attorney told
the Court, without his permission, that he could not attend his arraignment (Supplement, ECF No.
1621, PagelD 19455.) At the time of Holt’s arraignment, he was represented by Jon Saia
(Arraignment Transcript, ECF No. 1510, PagelD 14860). When Holt’s name was called, Mr. Saia
responded, “Johnathan Holt is not present in the courtroom today, Your Honor. I was informed
this morning that he was taken to the hospital.” Id. at PagelD 14862. When asked by Judge
Marbley if Holt had given authority for Saia to appear on his behalf, he said that he had been given
authority to appear, but not authority to proceed with arraignment on his behalf. Id. Saia felt
comfortable proceeding, however, and represented he had authority from Holt to enter a plea. Id.

20

Case: 2:14-cr-00127-ALM-MRM Doc #: 1648 Filed: 01/21/20 Page: 21 of 22 PAGEID #: 19577

at Page ID J 4862-63. iJeconfirmed thafHohrhas received a copy of the superseding indictment.
Id. at PagelD 14865. Representing that Holt had read the indictment and appeared top understand
the charges, Saia entered a plea of not guilty on his behalf as to each count. Id. at PagelD 14870.
Holt has not denied he was in the hospital on the date set for arraignment. If he was
hospitalized, he could not attend the arraignment. Because he had a right to be present personally,
Saia could have moved for a continuance, but Holt has presented no authority for the proposition
that it was somehow deficient performance to fail to do so. Moreover, he has not shown or even
suggested any prejudice. Arraignments in federal court, although requires by law, are almost
always purely formal proceedings for the entry of a plea. Holt has not even suggested how he
suffered any disadvantage from not making Judge Marbley re-set his arraignment.

Not Pursuing Holt’s “Testimony”

Finally Holt claims that he “testified” “that he witnessed the homicide and that he only saw
one person shoot his friend, because he opened the door.” (Supplement, ECF No. 1621, PagelD
19456). He asserts counsel was “ineffective for not pursuing this line of questioning.” Id.
Because Holt did not testify at trial, the Magistrate Judge assumes he is referring to the
statement he made to police at the time his fingerprints were taken. To have pursued this line of
questioning would have required putting Holt on the stand and having him admit he was present
at the shooting. Holt would have been subject to cross-examination about how he came to be
friends with a drug dealer, who it was that he saw shoot Quincy Battle, how he happened to be
present, etc. None of this would have been helpful to the defense. Given only these bare
allegations, Holt has failed to show deficient performance or prejudice.

21

Case: 2:14-cr-00127-ALM-MRM Doc #: 1648 Filed: 01/21/20 Page: 22 of 22 PAGEID #: 19578

In sum, HoltlsJighth-GrQundTor R-elief~should'Becienied on themerits.

Conclusion

Based on the foregoing analysis, the Magistrate Judge respectfully recommends that the
Motion to Vacate be GRANTED as to Ground One, insofar as Holt seeks a new sentencing hearing,
and DENIED in all other respects. Because reasonable jurists would not disagree with this
conclusion, it is also recommended that Petitioner be denied a certificate of appealability and that
the Court certify to the Sixth Circuit that any appeal would be objectively frivolous and should not
be permitted to proceed in forma pauperis.

January 21, 2020.
s/ MichaeCR. Merz
United States Magistrate Judge

NOTICE REGARDING OBJECTIONS
Pursuant to Fed. R. Civ. P. 72(b), any party may serve and file specific, written objections to the
proposed findings and recommendations within fourteen days after being served with this Report
and Recommendations. Because this document is being served by mail, three days are added under
Fed.R.Civ.P. 6. Such objections shall specify the portions of the Report objected to and shall be
accompanied by a memorandum of law in support of the objections. A party may respond to
another party’s objections within fourteen days after being served with a copy thereof. Failure to
make objections in accordance with this procedure may forfeit rights on appeal.

22

